No. 19-1257
IN THE

Supreme Court of the United States
MARK BRNOVICH, IN HIS OFFICIAL CAPACITY AS
ARIZONA ATTORNEY GENERAL, ET AL.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.

On Writ of Certiorari to the United States Court
of Appeals for the Ninth Circuit
Brief of the Public Interest Legal Foundation
and Former Justice Department Civil Rights
Division Officials as Amici Curiae
in Support of Petitioners
J. CHRISTIAN ADAMS
Counsel of Record
PUBLIC INTEREST LEGAL FOUNDATION
32 E. Washington St., Ste. 1675
Indianapolis, IN 46204
(317) 203-5599
adams@publicinterestlegal.org

i
Table of Contents
Table of Authorities .................................................ii
Interests of Amici Curiae ......................................... 1
Introduction ............................................................. 2
Summary of the Argument ...................................... 3
Argument ................................................................. 4
I.

A Section 2 Analysis Requires a Causal
Connection Between the Challenged
Practice or Procedure and Actual Vote Dilution or Denial on Account of Race .............. 4

II.

The Ninth Circuit’s Analysis Erroneously
Used Disparate Impact as a Threshold Element ........................................................... 10

III.

The History of the VRA and the Shelby
County Decision Preclude Grafting Section 5’s Retrogression Standard onto Section 2 ............................................................ 12

IV.

The Ninth Circuit Misapplied Senate Factors ............................................................... 14

Conclusion .............................................................. 19

ii
Table of Authorities
Cases
Bush v. Vera,
517 U.S. 952 (1996) .......................................... 10
Crawford v. Marion Cnty. Election Bd.,
553 U.S. 181 (2008) ......................................... 7-8
Frank v. Walker,
768 F.3d 744 (7th Cir. 2014) ............................ 11
Holder v. Hall,
512 U.S. 874 (1994) .......................................... 11
Johnson v. Governor of State of Fla.,
405 F.3d 1214 (11th Cir. 2005) ........................ 12
McCleskey v. Kemp,
481 U.S. 279 (1987) .......................................... 16
Miller v. Johnson,
515 U.S. 900 (1995) ..................................... 12-13
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016) .............................. 9
Shelby County v. Holder,
570 U.S. 529 (2013) .................................. passim
South Carolina v. Katzenbach,
383 U.S. 301 (1966) ..................................... 12-13
Thornburg v. Gingles,
478 U.S. 30 (1986) .................................... passim
U.S. v. Brown,
494 F.Supp.2d 440 (S.D. Miss. 2007) ................ 4
Veasey v. Abbott,
830 F.3d 216 (5th Cir. 2016) ............................ 10

iii
Constitutions and Statutes
52 U.S.C. § 10301 .................................................... 2
52 U.S.C. § 10301(b) ................................................. 4
52 U.S.C. § 10304 .............................................. 7 n.3
52 U.S.C. § 10304(b) .............................................. 10
Other Authorities
Danielle Root & Liz Kennedy, Increasing Voter Participation in America, CENTER FOR AMERICAN
PROGRESS (July 11, 2018, 12:01 AM),
https://www.americanprogress.org/issues/democracy/reports/2018/07/11/453319/increasing-voterparticipation-america/ ........................................ 8
Ellen Kurz, Registration Is a Voter-Suppression Tool.
Let’s Finally End It, WASHINGTON POST (Oct. 11,
2018), https://www.washingtonpost.com/opinions/registration-is-a-voter-suppression-tool-letsfinally-end-it/2018/10/11/e1356198-cca1-11e8a360-85875bac0b1f_story.html ....................... 8-9
Roger Clegg & Hans A. von Spakovsky, “Disparate
Impact” and Section 2 of the Voting Rights Act, 85
MISS. L.J. 1357-1372 (2017) ....................... 7 n.2

1
INTERESTS OF AMICI CURIAE 1
Amici curiae have a significant and long-standing
interest in this matter. The Public Interest Legal
Foundation (“Foundation”) is a 501(c)(3) organization
whose mission includes working to protect the fundamental right of citizens to vote and preserving the
constitutional balance between states and the federal
government regarding election administration procedures. The Foundation has sought to advance the
public’s interest in balancing state control over elections with Congress’s constitutional authority to protect the public from racial discrimination in voting.
This is best done by ensuring that the Voting Rights
Act and other federal election laws are preserved and
followed as the drafters intended. Specifically, the
Foundation has filed amicus briefs in cases across the
country to fight against the growing effort to misapply
Section 2 of the Voting Rights Act.
The other signatories are each former officials
with the Department of Justice who have spent their
careers enforcing the Voting Rights Act.
Thomas E. Wheeler, II served as an Assistant Attorney General in the U.S. Department of Justice’s
Civil Rights Division. Bradley Schlozman was Acting
Assistant Attorney General for Civil Rights and Principal Deputy Assistant Attorney General in the Civil
No counsel for a party authored this brief in whole
or in part, nor did any person or entity, other than
amici curiae and their counsel, make a monetary contribution intended to fund the preparation or submission of this brief. Each party provided a blanket consent to the filing of amicus curiae briefs.

1

2
Rights Division. Roger Clegg was Deputy Assistant
Attorney General in the Civil Rights Division. Robert
“Bob” N. Driscoll served as a Deputy Assistant Attorney General and Chief of Staff in the U.S. Department
of Justice’s Civil Rights Division. Hans A. von Spakovsky served as the career Counsel to the Assistant
Attorney General for Civil Rights.
Each amici has a strong dedication to and interest
in preserving the proper Constitutional arrangement
between the states and the federal government as it
relates to administration of elections. Their significant experience enforcing the Voting Rights Act provides the Court with unique and considerable help.
INTRODUCTION
This case presents the opportunity to correct an
increasing disregard of the requirement of Section 2
of the Voting Rights Act (“VRA”), 52 U.S.C. § 10301,
that there be some causal connection between a state
election practice or procedure and actual denial or dilution of a vote on account of race. The decision below
disregards the causality requirement and was instead
based on an impermissible element—disparate impacts. Allowing disparate racial impacts as an element giving rise to a Section 2 violation is not only
contrary to this Court’s longstanding requirement
that a practice or procedure must have some causal
connection to actual denial or dilution, it also intrudes
into the federalist presumption where states have
power to run their own elections. “[T]he Framers of
the Constitution intended the States to keep for themselves, as provided in the Tenth Amendment, the
power to regulate elections.” Shelby County v. Holder,
570 U.S. 529, 543 (2013) (internal quotation marks

3
omitted). “States retain broad autonomy in structuring their governments and pursuing legislative objectives.” Id. The challenge here to Arizona’s election
laws, like challenges in other circuits, did not rest on
traditional theories of liability under Section 2 and
therefore erodes the Constitutional arrangement of
power between states and the federal government.
SUMMARY OF ARGUMENT
The Court should reverse the decision below because the Ninth Circuit Court of Appeals applied an
analysis that conflicts with this Court’s causality requirements of a Section 2 claim articulated in Thornburg v. Gingles, 478 U.S. 30, 44-46 (1986). Causality,
namely the notion that a practice or procedure is under the totality of the circumstances responsible for a
denial or dilution of the vote on account of race, is constitutionally essential for Section 2’s intrusion into
state powers. Without genuine causality, and certainly by replacing causality with a disparate impacts
element, Section 2 becomes an impermissible intrusion into the federalist arrangement. See Shelby
County, 570 U.S. at 543 (“[T]he federal balance ‘is not
just an end in itself: Rather, federalism secures to citizens the liberties that derive from the diffusion of
sovereign power.’”) (internal citations omitted).
The Ninth Circuit’s opinion is the latest example
of a misapplication of Section 2 in a vote dilution or
denial case. Other circuits have also misapplied Section 2 and may continue to do so absent guidance from
this Court.

4
ARGUMENT
I.

A Section 2 Analysis Requires a Causal
Connection Between the Challenged
Practice or Procedure and Actual Vote
Dilution or Denial on Account of Race.

Section 2(b) provides that a violation has occurred
if, “based on the totality of the circumstances, it is
shown that the political processes . . . are not equally
open to participation” by a class based on race or color
“in that its members have less opportunity than other
members of the electorate to participate in the political process and to elect representatives of their
choice.” 52 U.S.C. § 10301(b). This Court established
a framework for analyzing a Section 2 “results” cause
of action challenging at-large elections in Thornburg
v. Gingles. 478 U.S. at 44-46. In the absence of a different standard, the general Gingles framework has
been used to analyze Section 2 cases outside of the
legislative redistricting context as well, albeit with
some adjustments for the particular challenged practice or procedure. See e.g., U.S. v. Brown, 494 F.
Supp.2d 440, 446-48 (S.D. Miss. 2007).
According to Gingles, to establish a Section 2
claim, a plaintiff must prove (1) that the minority
group is “sufficiently large and geographically compact to constitute a majority in a single-member district”; (2) that the group “is politically cohesive”; and
(3) that a majority’s bloc voting usually defeats the
minority’s preferred candidate. 478 U.S. at 50-51.
Moreover, even if those Gingles preconditions are satisfied, a plaintiff must show that based on the totality
of the circumstances, the challenged procedure results in a denial or dilution of the vote on account of

5
race. Id. at 44-45 (“The Senate Report specifies factors
which typically may be relevant to a § 2 claim… The
Report stresses, however, that this list of typical factors is neither comprehensive nor exclusive.”)
The three Gingles preconditions are elements that
a plaintiff must prove to establish a causal connection
between the challenged practice or procedure and actual vote dilution or denial on account of race under
Section 2, as amended. As to the first precondition,
the Court stated: “If it is not, as would be the case in
a substantially integrated district, the multimember
form of the district cannot be responsible for minority
voters’ inability to elect its candidates.” Id. at 50. As
to the second precondition, this Court stated: “If the
minority group is not politically cohesive, it cannot be
said that the selection of a multimember electoral
structure thwarts distinctive minority group interests.” Id. at 51. And as to the third precondition, this
Court inferred that the actual recurring defeat of a
minority candidate demonstrates an impediment. Id.
The emphasis on causality and tangible results contained in the third Gingles precondition is core to a
Section 2 claim. For a federal court to intrude into a
state’s constitutional prerogative to run their own
elections, the challenged law must, in reality, result
in unequal access to participation on account of race,
or, concrete barriers to full participation. Otherwise,
Section 2’s federal intrusion would strain the federalist structure in the Constitution.
The Ninth Circuit below, and other courts reviewing Section 2 claims, have replaced this Court’s emphasis on causality in Gingles with an emphasis on
disparate racial impacts. The Ninth Circuit conducted
a “two-step analysis” because “the jurisprudence of

6
vote-denial claims is relatively underdeveloped … .”
JA 612. Under its analysis, the first step is to “ask
whether, ‘as a result of the challenged practice or
structure[,] plaintiffs do not have an equal opportunity to participate in the political processes and to
elect candidates of their choice.’” JA 612-613 (quoting
Gingles, 478 U.S. at 44). “Second, if we find at the first
step that the challenged practice imposes a disparate
burden, we ask whether, under the ‘totality of circumstances,’ there is a relationship between the challenged ‘standard, practice, or procedure’ on the one
hand, and ‘social and historical conditions’ on the
other.” JA 613 (emphasis added). The second step
then uses the Senate factors, albeit incorrectly, to assess the totality of circumstances. JA 613-615.
In the leap between the first and second steps, the
Ninth Circuit asks the wrong question. Instead of asking whether the law provides minorities with the
same or equal opportunity to participate in the political process, it changes the question to whether the law
disparately impacts minorities. JA 617. The Ninth
Circuit has conflated the two:
First, we ask whether the challenged
standard, practice or procedure results
in a disparate burden on members of
the protected class. That is, we ask
whether, ‘as a result of the challenged
practice or structure[,] plaintiffs do not
have an equal opportunity to participate in the political processes and to
elect candidates of their choice.’

7
JA 612-13 (emphasis added). 2
The standard used by the Ninth Circuit would
turn the VRA into a one-way federal racial ratchet.
The fact is that every election regulation will burden
someone. 3 “Very few new election regulations improve
everyone’s lot, so the potential allegations of severe

See generally, Roger Clegg & Hans A. von Spakovsky, “Disparate Impact” and Section 2 of the Voting
Rights Act, 85 MISS. L.J. 1357-1372 (2017), originally
published as a Heritage Foundation paper, available
at http://thf_media.s3.amazonaws.com/2014/pdf/LM
119.pdf (criticizing aggressive “disparate impact” interpretations of Section 2 because of the constitutional problems that would raise).
3 Indeed, such a twisted application of Section 2 would
consider every election law through a racial lens
where the impacts on every racial subset could be purportedly cataloged by experts, and if any discriminatory effect could be detected, would give rise to a claim
as long as some other long-ago instance of discrimination could be exhumed. This would create a 50-state
standard where any discriminatory effect could be a
basis to strike down state election laws, similar to the
analysis under Section 5 of the VRA, 52 U.S.C. §
10304, before Shelby County, found the Section 4 triggers to be outdated. Shelby County, 570 U.S. at 557
(“Our country has changed, and while any racial discrimination in voting is too much, Congress must ensure that the legislation it passes to remedy that problem speaks to current conditions.”).
2

8
burden are endless.” Crawford v. Marion Cnty. Election Bd., 553 U.S. 181, 208 (2008) (Scalia, J., concurring, joined by Thomas, J., Alito, J.).
The misapplication of Section 2 jeopardizes scores
of other presumptively valid state election administration laws. Advocates active in this area often
brand these state election administration laws,
wrongly, as “voter suppression.” See generally Danielle Root & Liz Kennedy, Increasing Voter Participation in America, CENTER FOR AMERICAN PROGRESS
(July 11, 2018, 12:01 AM), https://www.americanprogress.org/issues/democracy/reports/2018/07/11/453319/increasing-voter-participation-america/ (“Furthermore, states must have in
place affirmative voter registration and voting policies in order to ensure that eligible voters who want
to vote are able to and are not blocked by unnecessary
and overly burdensome obstacles such as arbitrary
voter registration deadlines and inflexible voting
hours.”) (emphasis added).
Among the practices targeted by the contorted version of Section 2 are preregistration for elections, in
precinct voting, list maintenance procedures, election-day only voting, laws permitting observers to observe the election, witness requirements on absentee
ballots, procedures to assess a registrant’s citizenship, and naturally, voter identification requirements. Basic, accepted American norms such as registering to vote at all is now a “voter-suppression tool.”
Ellen Kurz, Registration Is a Voter-Suppression Tool.
Let’s Finally End It, WASHINGTON POST (Oct. 11,
2018), https://www.washingtonpost.com/opinions/registration-is-a-voter-suppression-tool-lets-finally-end-

9
it/2018/10/11/e1356198-cca1-11e8-a36085875bac0b1f_story.html.
The contorted interpretation of Section 2 as containing a disparate impact element and dispensing
with genuine causality analysis is the primary
weapon advocates are using to undermine the laws
that have governed election administration in the
states for at least a century. Indeed, this interpretation allows courts to become “entangled, as overseers
and micromanagers, in the minutiae of state election
processes.” Ohio Democratic Party v. Husted, 834 F.3d
620, 622 (6th Cir. 2016).
Section 2 of the VRA does not permit a disparate
impact analysis and instead requires an analysis of
the equal opportunity to participate and of causality
and real-world results. According to Gingles:
The “right” question . . . is whether “as
a result of the challenged practice or
structure plaintiffs do not have an
equal opportunity to participate in the
political processes and to elect candidates of their choice.” . . .
In order to answer this question, a
court must assess the impact of the contested structure or practice on minority
electoral opportunities “on the basis of
objective factors.”
Gingles, 478 U.S. at 44 (emphasis added). The Gingles
Court was not using “impact” in the sense of statistical disparities. Instead, it is referring to how the
structure impacts actual access to election processes
and how the structure has impacted actual elections.

10
Distilled to its essence, Gingles requires courts to
look to real-world electoral results and to be able to
draw a causal nexus between them and the challenged practice. See, e.g., Veasey v. Abbott, 830 F.3d
216, 244 (5th Cir. 2016) (Section 2 has a “requisite
causal link between the burden on voting rights” and
historical conditions that affect racial minorities differently.)
II.

The Ninth Circuit’s Analysis Erroneously
Used Disparate Impact as a Threshold Element.

By making disparate racial impact the threshold
element in a Section 2 case, the Ninth Circuit employed an improper standard. The dissent in the
Ninth Circuit noted correctly that the “majority’s
reading of the VRA turns § 2 into a ‘one-minority-voteveto rule’ that may undo any number of time, place,
and manner rules.” JA 726.
The Ninth Circuit’s decision imports the analysis
formerly used by the Department of Justice in reviewing election law changes pursuant to Section 5 of the
VRA by jurisdictions covered by Section 4 of the VRA.
Under Section 5, covered jurisdictions had to show
that there would be no statistical impact, or retrogression, on minorities in order to obtain federal preclearance for an election law change. 52 U.S.C. § 10304(b)
(referring to “diminishing the ability” of minorities to
vote); see generally Bush v. Vera, 517 U.S. 952, 983
(1996) (referring to Section 5 as precluding any
change that would lead to “a retrogression in the position of racial minorities”) (internal citations omitted). But the coverage formula under Section 4, which
captured all or parts of sixteen states, was struck

11
down by the Supreme Court in Shelby County v.
Holder, 570 U.S. 529. Section 5’s statistical retrogression standard, therefore, was effectively rendered
dormant.
Section 2 remains to prohibit racially discriminatory voting rules, but it does not employ the strict statistical retrogression trigger of Section 5. The Supreme Court foreclosed using Section 2 as a substitute
for Section 5’s statistical retrogression standard in
Holder v. Hall, 512 U.S. 874 (1994). Statistical “retrogression is not the inquiry in § 2 . . . cases.” Id. at 884.
This Court should reject the attempt to make an endrun around the Shelby County decision and Congress’s creation of very different burdens for Section 2
as compared to Section 5.
The de minimis trigger in Section 5 has never been
understood to apply to Section 2 because Section 2
does not rely on the concept of reduction or diminishment. Instead, Section 2 focuses on whether an equal
opportunity to participate in the political process exists and whether a practice or procedure, in reality,
denies or dilutes a vote on account of race. 4
Other circuits have rejected Section 2 claims built
on a disparate impact analysis. See, Frank v. Walker,
768 F.3d 744, 753 (7th Cir. 2014) (“Although these
findings document a disparate outcome, they do not
show a ‘denial’ of anything … as § 2(a) requires.”);
Importantly, this Court acknowledged that Section
5, which “required States to obtain federal permission
before enacting any law related to voting[,]” was “a
drastic departure from basic principles of federalism.”
Shelby County, 570 U.S. at 535.
4

12
Johnson v. Governor of State of Fla., 405 F.3d 1214,
1228 (11th Cir. 2005) (“Despite its broad language,
Section 2 does not prohibit all voting restrictions that
may have a racially disproportionate effect.”). Section
2 does not incorporate a disparate impact standard for
liability. Instead, it evaluates whether a standard,
practice or procedure gives less opportunity to a protected class to participate in the voting process than
it gives to an unprotected class. If the opportunity is
given to all, it is generally applicable and facially neutral, and the inquiry ends.
If disparate racial impacts had any relevance to a
Section 2 claim, the burden on states would raise similar constitutional concerns as those addressed in
Shelby County. Simply put, if the Section 2 standards
employed by the Ninth Circuit were correct, every
state could face litigation for every voting practice
that might have the slightest adverse statistical consequence on any minority group. This case presents
the opportunity for this Court to ensure that the correct analysis of vote denial or dilution claims brought
under Section 2 can be consistently and correctly evaluated.
III.

The History of the VRA and the Shelby
County Decision Preclude Grafting Section 5’s Retrogression Standard onto Section 2.

The VRA was enacted in 1965 to combat contemporaneous methods that were used to prevent minorities from registering to vote. Rather than formally
disenfranchising minorities, some states had devised
voting qualifications that were either only applied to

13
minorities (such as separate tests) or effectively applied disproportionately to minorities (literacy tests).
See, e.g., Miller v. Johnson, 515 U.S. 900, 937 (1995);
South Carolina v. Katzenbach, 383 U.S. 301, 310-11
(1966). Because of these procedures, the registration
process was not equally open to all.
As recognized by this Court in Shelby County, the
application of a disparate impact retrogression standard was a constitutionally burdensome means to combat a specific and grave historical problem. Shelby
County, 570 U.S. 529, 534-535; see also id. at 557-59
(Thomas, J., concurring) (characterizing Section 5’s
retrogression standard as an unconstitutional burden). The Court struck down the Section 4 coverage
formula because it no longer matched modern circumstances. Id. at 534-536. Thus, while Section 2 remains
to combat racial discrimination in election laws, it employs a different analysis than Section 5. If Section 2
were to employ a standard based on statistical disparate impacts, this burden on states would effectively
raise the same constitutional concerns in Shelby
County and impose an effective preclearance requirement (through the federal courts) on the entire country.
Simply, if the Section 2 standards set forth by the
Ninth Circuit in this case were correct, every state
might face litigation for every voting change that
might have the slightest adverse statistical consequence for the political party preferred by a racial minority group. That would be an exceedingly perverse
result, especially given this Court’s opinion in Shelby
County.

14
IV.

The Ninth Circuit Misapplied Senate Factors.

Courts across the country, and the Ninth Circuit
in this case, have grotesquely misapplied the Senate
Factors and considered evidence outside of the relevant inquiry under Section 2.
As the district court in this case explained, “When
determining whether, under the totality of the circumstances, a challenged voting practice interacts
with social and historical conditions to cause inequality in the electoral opportunities of minority and nonminority voters, courts may consider…the following
factors derived from the Senate Report accompanying
the 1982 amendments to the VRA.” JA 312. As articulated by this Court in Gingles, these Senate Factors
include:
1. the extent of any history of official
discrimination in the state or political
subdivision that touched the right of
the members of the minority group to
register, to vote, or otherwise to participate in the democratic process;
2. the extent to which voting in the elections of the state or political subdivision is racially polarized;
3. the extent to which the state or political subdivision has used unusually
large election districts, majority vote
requirements, anti-single shot provisions, or other voting practices or procedures that may enhance the opportunity for discrimination against the
minority group;

15
4. if there is a candidate slating process, whether the members of the minority group have been denied access to
that process;
5. the extent to which members of the
minority group in the state or political
subdivision bear the effects of discrimination in such areas as education, employment and health, which hinder
their ability to participate effectively in
the political process;
6. whether political campaigns have
been characterized by overt or subtle
racial appeals;
7. the extent to which members of the
minority group have been elected to
public office in the jurisdiction.
Gingles, 478 U.S. at 36-37.
The Ninth Circuit considered evidence far beyond
the relevant inquiry in analyzing Senate Factor One,
“the extent of any history of official discrimination.”
The Ninth Circuit went as far back as the period when
Arizona was not even a state, beginning with “the Territorial Period” in 1848, right up to the present day.
JA 625-642. Included in its historical analysis were 64
years of events that occurred before Arizona’s statehood in 1912, complete with references to massacres
and “blood thirsty efforts by whites” to exterminate
American Indians. JA 625. Only a small portion of the
Ninth Circuit’s analysis pertains to the current millennium and focused on one Arizona County’s reduction of the number of polling places, JA 642-43, and
translation errors in Spanish-language materials, JA

16
643. The Ninth Circuit improperly downplayed Arizona’s recent history in favor of focusing on centuriesold evidence. “Further, the ‘mixed bag of advancements and discriminatory actions’ in ‘Arizona’s recent
history’ does not weigh in Arizona’s favor.” JA 645.
Yet, this Court made it clear that the VRA “imposes current burdens and must be justified by current needs.” Shelby County, 570 U.S. at 536 (internal
citation omitted). This Court went on to explain that
the VRA’s encroachment on the States’ Constitutional
authority to regulate elections cannot be based on
“decades-old data and eradicated practices,” but can
be justified only by “current needs” to prevent discrimination. Id. at 550-51. Yet that is what the Ninth
Circuit has done.
In a different context from a VRA claim, this Court
has similarly held that historical evidence, to be relevant, must be “reasonably contemporaneous.”
McCleskey v. Kemp, 481 U.S. 279, 298 n.20 (1987).
Historical evidence dating back to “laws in force during and just after the Civil War,” rather, provide “little probative value.” Id. “Although the history of racial discrimination in this country is undeniable, we
cannot accept official actions taken so long ago as evidence of current intent.” Id.
It is crucial that this Court settle the issue of the
proper application of the Senate Factors, particularly
limits on the relevance of distant historical evidence
under Senate Factor One.
Regarding Senate Factor Two, the degree of racial
polarization, this Court should clarify that partisan
polarization is not the same thing as racial polariza-

17
tion. A defendant should enjoy the ability to conclusively rebut Senate Factor Two evidence with evidence that partisan polarization exists in the elections of the state or political subdivision.
Regarding Senate Factor Three, this Court should
clarify that evidence is only relevant under Senate
Factor Three if the evidence of unusually large election districts, majority vote requirements, anti-single
shot provisions, or other voting practices directly relate to the challenged practice or procedure. For example, evidence of “unusually large election districts”
should never be admissible evidence in a Section 2
challenge to absentee ballot witness signature requirements. Otherwise, evidence of wholly unrelated
and potentially longstanding voting practices will be
used to intrude on a state’s power to enact voting
practices having nothing whatsoever to do with the
other practices listed in Senate Factor Three. There
should be a close fit between the challenged practice
and plaintiff’s evidence under Senate Factor Three.
Without this close fit, the federalist arrangement is
unduly burdened.
Regarding Senate Factor Four, evidence of candidate slating should not be admissible in a Section 2
challenge to a practice or procedure unless that slating process can be shown to have a de minimis nexus
to the challenged practice or procedure. Otherwise,
treating that evidence as relevant to a Section 2 claim
would also intrude into the federalist arrangement
where states have power to run their own elections.
Senate Factor Six is in need of wholesale reevaluation by this Court. The mere existence of racial ap-

18
peals under Gingles attaches unfairly as relevant evidence against a defendant regardless of who made
the racial appeal. In other words, the mere existence
of a racial appeal in any context in a jurisdiction is
now relevant evidence to aid a plaintiff in a Section 2
case. Private third party behavior wholly unrelated to
the challenged practice or procedure in a Section 2
case, therefore, is used against a state or subdivision.
A state defending a practice or procedure has only one
means of rebutting evidence under Senate Factor Six
related to any private party behavior constituting a
racial appeal – argue the evidence presented is imaginary or fake. Indeed, that is no limit on Senate Factor
Six and results in a state election procedure being
subject to a Section 2 challenge in part because of
statements or political speech by private parties that
have nothing to do with the challenged practice or
procedure. Senate Factor Six, as currently constituted, creates an absurdist burden on states and an
impermissible intrusion into the power to run their
own elections.

19
CONCLUSION
For these reasons, the Court should reverse the
lower court’s decision and make it plain that a violation of Section 2 of the VRA requires some causal connection between a state election practice or procedure
and actual denial or dilution of a vote on account of
race.
Respectfully submitted,
J. CHRISTIAN ADAMS
Counsel of Record
PUBLIC INTEREST LEGAL FOUNDATION
32 E. Washington St., Ste. 1675
Indianapolis, IN 46204
(317) 203-5599
adams@publicinterestlegal.org
Dated: December 4, 2020

